                                              February 16, 2001




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum
                              Assistant Inspector General for Audits


SUBJECT:                      MEMORANDUM REPORT: REVIEW OF NRC’S WEB SITE
                              PRIVACY POLICY: INTERNET COOKIES (OIG-01-A-08)


This report provides the results of the Office of the Inspector General’s (OIG) review of the
Nuclear Regulatory Commission’s (NRC) web site privacy policy. OIG found that NRC
complies with Federal web site privacy policies. NRC has its privacy statement disclosed on its
principal web site. Neither NRC nor its third parties collect personally identifiable information on
individuals who visit its web site. Except for authorized investigations, and the gathering of site
usage statistics, no other attempt is made to identify individual users or their usage habits.
Information is collected for statistical purposes only and include: the name of the domain; the
type of browser and operating system used to access the site; and the date and time the user
accessed the site. However, NRC does not have a Management Directive covering this area.
Therefore, the agency does not have policy guidance written in its directive system that
establishes controls over or prohibits NRC and third parties from collecting personally
identifiable information from visitors to the NRC web site. The report makes two
recommendations.

PURPOSE

This review complies with the requirements of Public Law 106-554, Treasury and General
Government Appropriations Act, 2001 (HR 5658), passed on December 21, 2000. The Act
requires the Inspector General of each department or agency to submit to Congress, within 60
days of its enactment, a report that discloses any activity of the applicable department or
agency relating to: (1) the collection or review of singular data, or the aggregate lists that
include personally identifiable information, about individuals who access any Internet site of the
department or agency; and (2) agreements with third parties, including other government
agencies, to collect, review, or obtain aggregate lists or singular data containing personally
identifiable information relating to any individual’s access or viewing habits for governmental
and non-governmental Internet sites.
BACKGROUND

On June 2, 1999, the Office of Management and Budget (OMB) issued Memorandum M-99-18.
This memorandum directed agencies to post:

•      privacy policies to their agency’s principal web site by September 1, 1999;

•      privacy policies to any other known, major entry points to their web sites by
       December 1, 1999, as well as any web page where they collect substantial personal
       information from the public;

•      policies that clearly and concisely inform visitors to the web sites what information the
       agency collects about individuals, why the agency collects it, and how the agency will
       use it; and

•      policies that are clearly labeled and easily accessed when someone visits a web site.

Personal information is often collected at web sites in a file called a “cookie.” A cookie is placed
on a web user’s hard drive by a web site to monitor access to the site, usually without the user’s
knowledge. Personal information can include an individual’s name, e-mail address, postal
address, telephone number, social security number, and a credit card number. Cookies are
categorized into two main types: session and persistent. A session cookie is a file that tracks a
user’s activity during a visit to a web site but expires when the user leaves the web site. A
persistent cookie lasts a fixed period of time, possibly for years and across different web sites.
Potentially, many laws enacted to safeguard a citizen’s right to privacy would be violated by
establishing a persistent cookie.

On June 22, 2000, OMB issued Memorandum M-00-13, providing guidance relating to the
collection of information by Federal web sites using cookies. This OMB guidance states that
cookies should not be used at Federal web sites unless clear and conspicuous notice is given
and the following conditions are met: (1) there is compelling need to gather the data on the site;
(2) the agency takes appropriate and publicly disclosed privacy safeguards for handling
information derived from cookies; and (3) the head of the agency has personally approved the
use of cookies. In addition, the guidance requires that the agency incorporate privacy policy
compliance information into its annual budget submission, beginning in Fall 2000.

RESULTS

Federal privacy policy disclosed on NRC’s principal web site

NRC has a privacy policy statement posted on the home page of its web site that clearly
advises visitors of the use of personally identifiable information. In both August 1999 and
December 1999, the privacy policy was reviewed by the Office of the Chief Information Officer
(OCIO) to ensure compliance with M-99-18.

OCIO reviewed the web pages where NRC requests personally identifiable information to
ensure: (1) that the privacy policy is posted and that the guidance and model language was
used on the policy; and (2) that the policy is linked to all pages that request personal

                                                 2
information. Information is collected for statistical purposes only to include: the name of the
domain; the type of browser and operating system used to access the site; and the date and
time the user accessed the site. Further, NRC complied with the June 2000 OMB request to
include privacy policy compliance information in the agency’s information technology budget
submission for FY 2002.

Collection of personally identifiable information and agreements with third parties

OMB guidance prohibits the use of cookies at Federal web sites without adequate notice.
OCIO assured OIG that neither NRC nor its third party contractors send cookies. OIG tested
the web site for cookies both internally using NRC computers and externally from personal
computers to verify that neither NRC nor its third party contractors send cookies. Our test
procedures were consistent with those used by GAO to conduct similar tests. Our tests results
found that, in compliance with OMB requirements, neither the NRC web site nor the third party
contractors place cookies on users computers, nor does NRC collect personally identifiable
information. In addition to testing for cookies, OIG requested and received confirmation from
NRC that none of its contractors involved with the NRC web pages send cookies. Given that
the National Laboratories are under the Department of Energy (DOE), we also confirmed that
the DOE OIG included the Laboratories in its audit for collection of personally identifiable
information. Except for the gathering of site usage statistics, no other attempt is made to
identify individual users or their usage habits.

However, in reviewing the agency’s Management Directives, OIG found that the agency does
not have a directive to ensure the proper use of personally identifiable information. OIG was
informed by OCIO that the privacy policy will be included as part of Management Directive 2.6
NRC Information Resources Management Program, which is currently being written. OIG was
also informed that NRC contracts do not presently establish controls over, or prohibit the use of
cookies because the legislation was only recently enacted. However, agency managers
informed us that guidance covering the use of personally identifiable information will be issued
in the near future.

CONCLUSION

NRC has a privacy statement that clearly informs users how NRC handles information during
the user’s visit to the web site. There are links to the major pages in the web site back to the
privacy statement on the home page. Cookies are not sent to the user’s computer to track any
personally identifiable information. Only an operational log is used to generate site usage
statistics.

However, NRC should institutionalize its privacy policies in the agency’s directives system. In
addition, even though we were assured at the entrance conference that all future contracts will
include language prohibiting persistent cookies, this prohibition should also be a written policy in
the agency’s Management Directive system. These measures would increase public
confidence that NRC protects the privacy of citizens when they visit its web site.




                                                 3
MANAGEMENT COMMENTS

At the exit meeting on February 12, 2001, management agreed with our recommendations and
provided comments which have been incorporated in this report. Agency managers elected
not to provide written comments to the draft report. They also informed OIG of their plans to
issue interim guidance to cover this area until the Management Directive system is updated.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

(1)    Include language in a Management Directive and in future NRC contracts to establish
       management controls over or prohibit NRC and third party contractors from collecting
       personally identifiable information from visitors to the NRC web site.

(2)    Incorporate guidance into a Management Directive by September 1, 2001.

Please provide information on actions taken or planned on each of the recommendations
directed to your office by March 16, 2001. Actions taken or planned are subject to OIG follow
up.

SCOPE/ CONTRIBUTORS

This review focused on whether the NRC was following OMB’s Memorandum 99-18 and
Memorandum 00-13 addressing privacy policies on Federal web sites.

To complete our objectives we evaluated NRC’s web site to determine if the privacy policy was:
(1) clearly labeled; (2) easily accessed; (3) informed visitors about the information NRC collects;
and 4) posted at major Web pages within the web site. We also reviewed OMB’s guidance on
privacy policies. We researched GAO reports and OIG reports concerning privacy and Internet
cookies. We conducted interviews with staff as needed and reviewed all NRC pertinent
documents concerning privacy and cookies. We tested to determine if NRC, its contractors, or
the National Laboratories were using cookies to collect personally identifiable information.

We evaluated the management controls with regard to NRC’s web site privacy policy and
conducted our work from January 2001 to February 2001 in accordance with generally
accepted Government auditing standards. This review was conducted by Corenthis Kelley,
Team Leader, Beth Serepca, Audit Manager, and Vicki Foster, Management Analyst.

If you have any questions or concerns with regard to this report, please contact,
Corenthis Kelley at 415-5977 or me at 415-5915.

Attachment
Recommendation Resolution Procedures




                                                 4
cc:   R. McOsker, OCM/RAM
      B. Torres, ACMUI
      B. Garrick, ACNW
      D. Powers, ACRS
      J. Larkins, ACRS/ACNW
      P. Bollwerk III, ASLBP
      K. Cyr, OGC
      J. Cordes, Acting OCAA
      S. Reiter, Acting CIO
      J. Funches, CFO
      P. Rabideau, Deputy CFO
      J. Dunn Lee, OIP
      D. Rathbun, OCA
      W. Beecher, OPA
      A. Vietti-Cook, SECY
      F. Miraglia, DEDR/OEDO
      C. Paperiello, DEDMRS/OEDO
      P. Norry, DEDM/OEDO
      J. Craig, AO/OEDO
      M. Springer, ADM
      R. Borchardt, OE
      G. Caputo, OI
      P. Bird, HR
      I. Little, SBCR
      W. Kane, NMSS
      S. Collins, NRR
      A. Thadani, RES
      P. Lohaus, OSP
      F. Congel, IRO
      H. Miller, RI
      L. Reyes, RII
      J. Dyer, RIII
      E. Merschoff, RIV
      OPA-RI
      OPA-RII
      OPA-RIII
      OPA-RIV




                                   5
                    Instructions for Responding to OIG Report Recommendations


Instructions for Action Offices

Action offices should provide a written response on each recommendation within 30 days of the date of
the transmittal memorandum or letter accompanying the report. The concurrence or clearance of
appropriate offices should be shown on the response. After the initial response, responses to
subsequent OIG correspondence should be sent on a schedule agreed to with OIG.

Please ensure the response includes:

1. The report number and title, followed by each recommendation. List the recommendations by
number, repeating its text verbatim.

2. A management decision for each recommendation indicating agreement or disagreement with the
recommended action.

       a. For agreement, include corrective actions taken or planned, and actual or target dates for
completion.

         b. For disagreement, include reasons for disagreement, and any alternative proposals for
corrective action.

        c. If questioned or unsupported costs are identified, state the amount that is determined to be
disallowed and the plan to collect the disallowed funds.

       d. If funds put to better use are identified, then state the amount that can be put to better use (if
these amounts differ from OIG’s, state the reasons).

OIG Evaluation of Responses

If OIG concurs with a response to a recommendation, it will (1) note that a management decision has
been made, (2) identify the recommendation as resolved, and (3) track the action office’s
implementation measures until final action is accomplished and the recommendation is closed.

If OIG does not concur with the action office’s proposed corrective action, or if the action office fails to
respond to a recommendation or rejects it, OIG will identify the recommendation as unresolved (no
management decision). OIG will attempt to resolve the disagreement at the action office level.
However, if OIG determines that an impasse has been reached, it will refer the matter for adjudication to
the Chairman.

Semiannual Report to Congress

In accordance with the Inspector General Act of 1978, as amended, OIG is required to report to
Congress semiannually on April 1 and October 1 of each year, a summary of each OIG report issued for
which no management decision was made during the previous 6-month period. Heads of agencies are
required to report to Congress on significant recommendations from previous OIG reports where final
action has not been taken for more than one year from the date of management decision, together with
an explanation of delays.




                                                      6
